NO. ________________

IN THE SUPREME COURT OF THE UNITED STATES

MARKEITH LOYD – PETITIONER
VS
STATE OF FLORIDA – RESPONDENT

PROOF OF SERVICE
I, NANCY RYAN, do swear or declare that on this 3rd day of June, 2021, as
required by Supreme Court Rule 29 I have served the enclosed PETITION FOR A
WRITE OF CERTIORARI on the Attorney General’s Office by electronic service
to crimappdab@myfloridalegal.com and mailed to Markeith Loyd, #DOB 10-081975, Orange County Jail, P.O. Box 4970, Orlando, FL 32802.
I declare under penalty of perjury that the foregoing is true and correct.
Executed this 3rd day of June, 2021.

Nancy Ryan
Nancy Ryan

